           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
    MASSACHUSETTS DISABILITY
     DETERMINATION SERVICES

     July 2004   A-01-04-14032




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM


Date:   July 13, 2004                                                             Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Massachusetts Disability Determination Services
        (A-01-04-14032)

        The objectives of our audit of the Fiscal Years (FY) 2001 and 2002 administrative costs
        claimed by the Massachusetts Disability Determination Services (MA-DDS) were to:
                 evaluate the MA-DDS’ internal controls over the accounting and reporting of
                  administrative costs,
                 determine whether costs claimed by the MA-DDS were allowable and funds were
                  properly drawn, and
                 assess limited areas of the general security controls environment.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by disability
        determination services (DDS) in each State or other responsible jurisdiction, according
        to Federal regulations.1 Each DDS is responsible for determining claimants’ disabilities
        and assuring that adequate evidence is available to support its determinations. To
        make proper disability determinations, each State agency is authorized to purchase
        consultative medical examinations and medical evidence of record from the claimants’
        physicians or other treating sources. SSA pays the State agency for 100 percent of
        allowable expenditures using Forms SSA-4513. (For additional background
        information, see Appendix B of this report.)




        1
            20 C.F.R. §§ 404.1601 et. seq. (2004) and 404.1001 et. seq. (2004).
Page 2 – Manuel J. Vaz


RESULTS OF REVIEW
The MA-DDS had adequate internal controls over accounting and reporting of
administrative costs and draw downs. Our tests of the amounts MA-DDS reported on
Forms SSA-4513 provided reasonable assurance the DDS had accurately reported the
administrative costs—totaling $61,984,550—it incurred for disability determination
activities during our audit period (see Table 1 below). Our tests of MA-DDS’ claimed
costs showed the sampled expenditures were allowable and allocable and Federal
funds were properly drawn. However, we found that the MA-DDS leased more office
space than SSA’s policy allowed in FYs 2001 and 2002—but both DDS and SSA staff
informed us the policy was outdated and needed revisions. Finally, our limited review of
the MA-DDS’ security controls environment showed that controls were in place, and
SSA and the DDS were taking steps to address outstanding security issues.


              TABLE 1: FY 2001 AND 2002 ADMINISTRATIVE COSTS CLAIMED

         Cost                                                               Unliquidated
                     Total Obligations     Total Disbursements
      Categories                                                            Obligations
      Personnel         $37,584,370               $37,584,370                       $0
      Medical           $12,548,546               $12,548,546                       $0
      Indirect             $851,061                  $851,061                       $0
      All Other         $11,000,573               $10,922,173                 $78,400
      Total            $61,984,550              $61,906,150                  $78,400

(For a more detailed analysis of the FY 2001 and 2002 administrative costs claimed,
see Appendix C.)

DDS OFFICE SPACE

SSA’s policy (effective August 1996) limits DDS offices to a “…maximum total allowable
space… [of] 150 square feet…” per full time equivalent (FTE).2 However, our review of
the MA-DDS’ lease documentation showed the DDS leased over 180 square feet of
office space for 388 FTEs.3 Specifically, the MA-DDS leased more than 13,000 square
2
  SSA, Program Operations Manual System, DI 39527.050, DDS Office Space Allocation Guide. An FTE
represents an employee working full time (or 2,080 hours a year).
3
 Our analysis of the MA-DDS’ payroll data for FY 2002 showed that throughout the year no less than
258 employees, and no more than 280 employees, drew a State salary. Our analysis of the MA-DDS’
contracted FY 2002 Medical Consultant data showed that 74 consultants were reimbursed for their
medical work no less than 3 times, and no more than 52 times, during the year. We did not determine the
number of temporary (or clerical) staff which were used throughout FY 2002. However, with a total of
354 employees and consultants needing office space, we concluded leasing office space for 388 FTEs
was reasonable.
Page 3 – Manuel J. Vaz


feet in office space (at a combined cost of over $500,000 for FYs 2001 and 2002) than
was specified in SSA’s policy manual.4

Boston and Worcester Offices

The MA-DDS commercially leased office space in the two most populated cities in the
State of Massachusetts to perform its disability determination mission. The larger office
was located in Boston and the smaller office was located in Worcester. According to its
leases, the Boston office allocated 52,141 square feet to 281 FTEs, while the Worcester
office allocated 19,375 square feet to 107 FTEs.5 On average, each FTE in the Boston
office was allocated 186 square feet, and each FTE in the Worcester office was
allocated 181 square feet of office space. Tables 2 and 3 below show the amount of
office space leased (above the amount specified in SSA’s policy manual) in
FYs 2001 and 2002, respectively. (See Appendix D for the leases and the lease
amendment.)


                           TABLE 2: FY 2001 EXCESS OFFICE SPACE ANALYSIS

                                            Maximum                               Square Footage
                                          Allowable Sq.      Actual Amount         Leased above
        MA-DDS Facility            FTEs    Ft. for Office      of Leased           SSA’s Policy
                                          Space per SSA       Office Space            Manual
                                          Policy Manual                             Guidelines
      Boston                       281        42,150             52,141                 9,991
      Worcester                    107        16,050             18,975                 2,925
      (Oct. 2000–Feb. 14, 2001)

      Worcester                    107        16,050             19,375                 3,325
      (Feb. 15, 2001–Sept. 2001)

      Totals                       388        58,200             71,516                13,1666




4
 According to the lease agreements, the DDS paid $23.75 per square foot in Boston and $8.65 per
square foot in Worcester. Over $500,000 was charged to SSA for the space leased above the
150 square foot guidelines—calculated as follows: [($23.75 * 9,991) + ($8.65 * 3,325)] * 2 years. In our
April 2004 report—Administrative Costs Claimed by the Michigan Disability Determination Services
(A-05-03-13036)—we also determined that more than 150 square feet was leased per FTE.
5
 Prior to February 15, 2001, the MA-DDS leased 18,975 square feet in Worcester for 107 FTEs (an
average of 177 square feet per FTE).
6
    The total was calculated as 9,991 + (2,925 x 4.5 months/12 months) + (3,325 x 7.5 months/12 months).
Page 4 – Manuel J. Vaz



                     TABLE 3: FY 2002 EXCESS OFFICE SPACE ANALYSIS

                                          Maximum                                   Square Footage
                                        Allowable Sq.         Actual Amount          Leased above
        MA-DDS Facility       FTEs       Ft. for Office         of Leased            SSA’s Policy
                                        Space per SSA          Office Space             Manual
                                        Policy Manual                                 Guidelines
    Boston                     281           42,150                52,141                  9,991
    Worcester                  107           16,050                19,375                  3,325
    Totals                     388           58,200                71,516                 13,316

SSA Policy on Office Space

According to staff at the MA-DDS, SSA Regional Office (RO) in Boston, and SSA’s
Office of Disability Determinations in Baltimore, the current policy of 150 square feet per
FTE is outdated and needs revisions.
        The MA-DDS staff believe the additional space is needed for equipment storage
         (e.g., computer systems), providing handicapped accessibility, and adequate
         training facilities.7
        SSA’s RO staff indicated additional office space was needed for computer
         systems, as well as for training. Also, the RO staff did not believe the MA-DDS
         was leasing excess office space. Specifically, the FY 2002 Regional DDS
         Spending Plan showed that the MA-DDS requested, and the Region approved,
         funding for the leasing of 71,516 square feet of office space. Further, the Region
         believes the leasing rates for the two office locations were probably lower than
         what was typically charged for similar commercial office space. Finally, the RO
         mentioned the cost of moving DDS staff to smaller office space would be costly
         and would not allow for future expansion.
        SSA’s Office of Disability Determinations—which has overall oversight over DDS
         operations—indicated that the space computation worksheet in SSA’s policy
         manual was outdated and the DDSs are not held to its requirements. The Office
         of Disability Determinations staff was uncertain as to what is adequate DDS
         space and they are currently working on a space plan to be followed by DDSs in
         the future. However, this plan is in its initial stages.




7
  In reference to its training facilities, MA-DDS staff informed us, “Some space might have been saved
had the DDS offices [Boston and Worcester] elected to utilize one training facility in each site instead of
the two facilities [computer based training and non-computer based training].” However, the staff also
informed us that this approach would adversely impact the MA-DDS’ ability to meet their training needs.
Page 5 – Manuel J. Vaz


CONCLUSIONS AND RECOMMENDATION
MA-DDS generally complied with laws, regulations, policies and procedures governing
expenditures and obligations incurred for SSA’s disability program for FYs 2001 and
2002. Also, the DDS had internal controls and security controls in place. However, the
MA-DDS leased more office space than SSA’s policy allowed in FYs 2001 and 2002—
but both DDS and SSA staff indicated the policy was outdated and needed revisions.
Without a firm policy in place, the potential exists for DDSs to charge SSA for
unreasonable office space costs. Therefore, we recommend that the RO work with the
Office of Disability Determinations staff to ensure the DDS office space policy is
updated timely.

AGENCY COMMENTS
The RO agreed that the MA-DDS leased more office space than SSA’s policy allowed,
but that the amount of space in use was not unreasonable or excessive. Further the
RO acknowledged that the current policy guidelines (written in 1996) do not represent
the spacing needs of today’s DDS.

Additionally, the RO requested that we review the $364,278 in funds allocated for the
operation of the Cooperative Disability Investigations (CDI) unit in FY 2002—since
these funds were not specifically addressed in our audit of the DDS’ administrative
costs. (See Appendix E for the RO’s comments. MA-DDS did not provide comments to
the report.)

OIG RESPONSE
Although our report did not specifically address the CDI unit, our review of the State
Agency Obligational Authorization For SSA Disability Programs (Form SSA-872)
showed that the DDS appropriately reported the $364,278 in CDI costs separately for
FY 2002. Additionally, our review of the DDS’ FY 2002 costs included $182,744 of the
$364,278 CDI unit costs. Specifically, our review included the costs for the DDS
employees who worked in the CDI unit, as well as the indirect costs. Since our review
found that the DDS had adequate controls over the accounting and reporting of
administrative costs, we did not include the remaining $181,534 in CDI costs—which
represent less than 1 percent of the $31 million in total DDS costs for FY 2002—in our
review. The $181,534 in costs that were not included in our review were for personnel
costs associated with State Attorney General staff working in the CDI unit, as well as
non-personnel costs, such as two car leases.



                                                   S                 for
                                                  Steven L. Schaeffer
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Schedule of Total Costs Reported on the Forms SSA-4513—State
             Agency Reports of Obligations for SSA Disability Programs

APPENDIX D – Massachusetts Disability Determination Services’ Leases for its Boston
             and Worcester Facilities

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
Act        Social Security Act
CDI        Cooperative Disability Investigations
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FTE        Full-Time Equivalents
FY         Fiscal Year
MA-DDS     Massachusetts Disability Determination Services
RO         Regional Office
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability
           Programs
SSI        Supplemental Security Income
Treasury   Department of Treasury
                                                                      Appendix B

Background, Scope and Methodology
BACKGROUND

The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State or other responsible jurisdiction, in
accordance with Federal regulations.1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601 et. seq. and 404.1001 (2004).
2
    31 C.F.R. § 205 (2004).
3
    Public Law No. 101-453, 31 C.F.R. § 6501 (2004).



                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Massachusetts
Disability Determination Services (MA-DDS) reported on its Forms SSA-4513 for
FYs 2001 and 2002. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under
Circular A-87 and appropriate, as defined by SSA’s Program Operations Manual
System.

We also:
      Reviewed applicable Federal regulations and pertinent parts of Program
       Operations Manual System DI 39500, DDS Fiscal and Administrative
       Management, and other instructions pertaining to administrative costs incurred
       by MA-DDS and draw down of SSA funds covered by the Cash Management
       Improvement Act.
      Interviewed staff at MA-DDS and the SSA Regional Office.
      Reviewed State policies and procedures related to personnel, medical services,
       and all other non-personnel costs.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by MA-DDS on Forms SSA-4513 for FYs 2001 and 2002.
      Examined the administrative expenditures (personnel, medical service, and all
       other non-personnel costs) incurred and claimed by MA-DDS for FYs 2001 and
       2002 on Forms SSA-4513.
      Examined the indirect costs claimed by MA-DDS for FYs 2001 and 2002 and the
       corresponding Cost Allocation Plans.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on Forms SSA-4513.
      Reviewed the State of Massachusetts Single Audit reports issued in
       2000 through 2002.
      Conducted limited general control testing—which encompassed reviewing the
       physical access security and security plan within the DDS. We also reviewed the
       (1) April 2003 DDS Self-Review (Security Review Checklist) - Boston and
       Worcester facilities, (2) SSA – Boston Region’s 5-Year Security Review of the
       MA-DDS, and (3) “Disability Determination Services Security Document”
       (Administrators’ Letter No. 644). We also toured each floor of the Boston facility
       to further measure the MA-DDS’ security controls.




                                            B-2
The electronic data used in our audit was sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit in Boston, Massachusetts at the Office of the Inspector
General/Office of Audit and the MA-DDS between September 2003 and March 2004.
We conducted our audit in accordance with generally accepted government auditing
standards.

METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other non-
personnel costs. We obtained computerized data from MA-DDS for FYs 2001 and
2002 for use in statistical sampling.

Personnel Costs

We sampled 50 employee salary items from one randomly selected pay period in
FY 2002. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the MA-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 randomly selected medical consultant costs from FY 2002. We
determined if sampled costs were reimbursed properly and ensured the selected
medical consultants were licensed.

Medical Costs

We sampled a total of 100 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed MA-DDS in
compliance with the State Cost Allocation Plan. We analyzed the approved rate used
for each quarter, ensuring the indirect cost rate changed when the Indirect Cost Rate
Agreement was modified. We reviewed the documentation and traced the base
amounts back to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate utilized was a provisional, predetermined, or final
rate.




                                            B-3
All Other Non-Personnel Costs

We stratified all other non-personnel costs into ten categories: (1) Occupancy,
(2) Contracted Costs, (3) EDP Maintenance, (4) New EDP Equipment/Upgrades,
(5) Equipment Purchases and Rental, (6) Communications, (7) Applicant Travel,
(8) DDS Travel, (9) Supplies, and (10) Miscellaneous. We selected a stratified random
sample of 50 items from each FY based on the percentage of costs in each category
(excluding Occupancy) to total costs. We also performed a 100 percent review of
Occupancy expenditures.




                                         B-4
                                                        Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations For Social Security Administration
Disability Programs
            Massachusetts Disability Determination Services

               FISCAL YEAR (FY) 2001 AND FY 2002 COMBINED
                                         UNLIQUIDATED      TOTAL
REPORTING ITEMS     DISBURSEMENTS        OBLIGATIONS    OBLIGATIONS
Personnel             $37,584,370              $0       $37,584,370
Medical              $12,548,546                 $0     $12,548,546
Indirect               $851,061                  $0          $851,061
All Other            $10,922,173             $78,400    $11,000,573
TOTAL                $61,906,150             $78,400    $61,984,550

                                   FY 2002
                                         UNLIQUIDATED      TOTAL
REPORTING ITEMS     DISBURSEMENTS        OBLIGATIONS    OBLIGATIONS
Personnel             $19,630,811              $0       $19,630,811
Medical               $6,233,405                 $0         $6,233,405
Indirect               $462,384                  $0          $462,384
All Other             $5,175,839             $78,400        $5,254,239
TOTAL                $31,502,439             $78,400    $31,580,839

                                   FY 2001
                                         UNLIQUIDATED      TOTAL
REPORTING ITEMS     DISBURSEMENTS        OBLIGATIONS    OBLIGATIONS
Personnel             $17,953,559              $0       $17,953,559
Medical               $6,315,141                 $0         $6,315,141
Indirect               $388,677                  $0          $388,677
All Other             $5,746,334                 $0         $5,746,334
TOTAL                $30,403,711                 $0     $30,403,711
                                          Appendix D

Massachusetts Disability Determination
Services’ Leases for its Boston and Worcester
Facilities
            BOSTON, MASSACHUSETTS LEASE




                        D-1
WORCESTER, MASSACHUSETTS LEASE




             D-2
WORCESTER, MASSACHUSETTS LEASE AMENDMENT




                  D-3
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      June 15, 2004                                                            Refer To:
                                                                                    S2D1G5-3065 /DI-
                                                                                    16/ORC-2004-5665

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Administrative Costs Claimed by the Massachusetts Disability Determination Services (A-01-
           04-14032), (Your Memo Dated May 7, 2004) - REPLY

           We have reviewed your draft report on the audit of the administrative costs claimed by the
           Massachusetts Disability Determination Services (MA DDS) for Fiscal Years (FYs) 2001 and
           2002. We are pleased that the MA DDS had adequate internal controls over accounting and
           reporting of administrative costs and draw downs. Further, your review showed that the MA
           DDS’s security controls were in place, and we and the DDS are taking steps to address
           outstanding security issues.

           The only finding identified was that the MA DDS leased more office space than SSA’s policy
           allowed in FYs 2001 and 2002. This finding is based on a POMS instruction dated in 1996. Since
           the time of this POMS issuance, the DDS has automated and installed a LAN, added personal
           computers, printers, peripheral computer equipment and built a computer room to support this,
           and has established an IVT training room. Also, the DDS built hearings offices with private
           interviewing space. These needs are not addressed in the 1996 POMS guidelines for space.
           Further, the Boston MA DDS space spans seven floors of a commercial building, resulting in the
           need for additional space to accommodate handicapped access, stairwells and elevators. These
           issues must be considered in assessing the space needs to operate a DDS in today’s operating
           environment, as well as a consideration of the cost benefit assessment of moving to a new
           facility, incurring the high costs of moving and retrofitting space to install the necessary cabling,
           wiring and security for SSA’s systems requirements. When we plan budgets and review leases,
           we have concurred with the MA DDS’s requests, based on their operating needs and costs
           justifications. Based on these issues, we do not feel the DDS space is unreasonable or excessive.




                                                           E-1
We are disappointed, however, that the audit did not include an assessment of the Cooperative
Disability Investigations (CDI) unit funds that were allocated to the MA DDS. In FY02, the DDS
budget included $364,278 for the CDI unit. This funding supported salaries and indirect costs for
2.2 state Attorney General (AG) investigators and 3 DDS staff, as well as the costs for car leases,
insurance, fuel, tolls and maintenance of two cars used by state investigators. We feel this audit is
incomplete without an assessment of this aspect of the administrative costs claimed by the DDS
and request it be included as an addendum to this audit.

If you have any further questions, please do not hesitate to contact me or your staff may contact
Roni Brown of the Center for Disability staff at (617)565-2390.


cc:    Lenore Carlson




                                                E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG CONTACTS

   Judith Oliveira, Director, (617) 565-1765

ACKNOWLEDGMENTS

In addition to those named above:

   David Mazzola, Audit Manager

   Joseph LoVecchio, Auditor

   Alexander Rosania, Program Analyst


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-04-14032.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the econ-omy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
